                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A10110088                                                                      Page 1 of 1



                 Our investigation determined that the Subjects 1 fabricated claims of academic degrees
         and professional employment experience in proposals submitted to NSF, and that each of the
         proposals contained extensive copied text from uncited sources, constituting plagiarism. In light
         of this misconduct, NSF debarred the Subjects and their company from directly or indirectly
         obtaining the benefits of Federal grants for five years.

                 This memo, the attached Report of Investigation, and the letters from NSF with a notice
         of proposed debarment and the final debarment notice constitute the case closeout. Accordingly,
         this case is closed.




NSF OIG Form 2 (11/02)·
SENSITIVE                                                                             SENSITIVE




      National Science Foundation
        Office of Inspector General




                 Report .of Investigation
                Case Number A 10110088
                                  10 July 2012

                        This Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only. to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Form 22b (1/13)
CONFIDENTIAL                                                                  CONFIDENTIAL




Executive Summary

Allegations          Fabricated claims of academic degrees, professional employment
                     experience, and plagiarism in proposals submitted to NSF.




OIG's Investigation Our investigation showed that the Subjects fabricated claims of academic
                    degrees and professional employment experience in two NSF proposals,
                    and in one NIH proposal. We also established that each of three proposals
                    submitted by the Subjects contained extensive copied text from uncited
                    sources, constituting plagiarism.

OIG Action           We referred the case to the U.S. Attorney's Office for the
                     - · The office declined the case for criminal prosecutiOn u~;;\.>au;)~;;
                     there was no monetary loss to the government. This report is sent to NSF
                     for appropriate action.

OIG
Recommendation       OIG recommends that NSF iss~barment of the
                     Subjects, and the o r g a n i z a t i o n - for five years.




                                                                                                1
I.     Factual Background

       The Subjects 1 as PI and/or coPI submitted two proposals 2 to NSF, and one 3 to NIH. We
assessed an allegation of plagiarism in the first NSF proposal.

II.    OIG Investigation

        As part of our assessment, we examined NSF proposal submission histories for the PI and
coPif Within a one-month period starting July 1, 2010, the Subjects submitted twelve versions
of the first proposal to NSF that were either withdrawn or returned without review by NSF for
various reasons. The thirteenth version of the proposal was accepted by NSF and subsequently
evaluated in NSF's merit review process. The PI signed as Authorized Organizational
Representative on all NSF proposals.

       We completed database searches on the PI, the coP I, and their organization. 5 The
organization 6 is a - corporation established in June 2010, with the PI as the registered
agent. The search revealed that the PI had a criminal history, including charges and convictions
involving forgery and fraudulent documents. In examining the group of thirteen versions
submitted to NSF by the Subjects, we noted inconsistencies in the biographical sketches for the
PI and coPI that raised significant questions regarding their academic credentials and
employment positions.

      Fabricated Claims by the Subjects in their biographical sketches in NSF proposals

                                 Fabricated academic credentials

        In the biographical sketches ofthirteen versions ofthe first~7
consistently claimed an "u~ in 1976 from t h e - , and a
doctorate in 1982 from t h e - . A claim of a second doctorate from the
                     is less consistently listed in the proposals, being described variously as
                     986 or 1990. A "masters" is sometimes claimed as being awarded from
- i n 1978, or sometimes f r o m - in 1986. On the cover pages ofthe thirteen
versions of the first NSF proposal, the PI specifically claimed a Ph.D. degree awarded in 1982.




                             was
                        the PI and coPI are attached at Tab 2.
                      and coPI are available for examination by NSF officials upon request.




                                                    2
       In the biographical sketches often versions of the first NSF proposal, the coPI 8
consistently claimed a "bachelor" degree in 1976 from-, and a second "b~ee
in 1978 from-. In most proposals, he claimed a 1980 doctorate from t h e -
-        and a 1982 post-doctorate position at the

        We contacted educational institutions listed in the ·
to establish the validities ofthe claimed degrees. 9 For each
requested a system-wide search under all possible names
claimed academic degrees. All three systems responded. 10 None of the degrees claimed by the
Subjects were awarded by these institutions. We therefore conclude that claims of academic
credentials by the Subjects in the biographical sketches of the NSF proposals are fabricated. The
purpose ofthese fabrications was to provide an appearance of professional academic credentials
that the Subjects did not possess.

                       Fabricated claims ofprofessional employment experience

        The PI claimed, on his biographical sketches, periods of employment at
          11
- " and "Department of Corrections," or in "private practice" (implicitly as a
psychologist). The periods of claimed employment overlap with periods of his incarceration. 12
We conclude that employment information provided by the PI on his biographical sketches is
fabricated.

       University records also contradict the coPI's claim of employment as a postdoctoral
researcher. 13 We conclude that the employment information provided by the coPI on his .
biographical sketches is fabricated.

        In sum, we conclude the Subjects' claimed employment and professional expertise are
fabricated. The purpose ofthese fabrications was to provide an appearance of professional
credentials and experience that the Subjects did not possess.




                                  f o r - - (PI on all thirteen proposals) a n d - c o P I on ten proposals)
     a~~·-u•cm..u at Tab 3 alon~sheet that summarizes the educational degree clmms.
   '-'UILHI.Jill<OU um·u.. roo<u ~~~IIJUll.~~~ are at Tab 4.

                                                                   . At the time the PI claimed to be employed at

                                                                   referred to in Footnote 3.




                                                        3
                                 Plagiarism in NSF and NIH Proposals

         The Subjects' merit-reviewed NSF proposal 14 contained 279 lines of text and 21
embedded references copied from 10 source documents. 15 The text from four sources was
copied in its entirety into the proposal. The 21 embedded references in the copied text comprise
the entirety of the "References Cited" section of the proposal. To place this copying in
perspective, a full 5 out of 6 pages of the project description (about 80%) consists of text copied
verbatim from the sources, and used without quotation, citation, or reference. We conclude that
the Subjects intentionally committed plagiarism in this proposal.

        After receiving a declination from NSF on the first merit-reviewed proposal, the PI and
coP I submitted a second proposal to NSF. 16 We assessed this proposal and found 131 new lines
oftext copied from 8 new source documents. 17 Approximately 7 of 11 pages (65%) ofthis
proposal is text copied verbatim from the sources, and used without quotation, citation, or
reference. We conclude that the Subjects intentionally committed plagiarism in this proposal.

       During our investigation, we learned that the Subjects submitted a proposal to the
National Institutes of Health (NIH). 18 We obtained a copy of the proposal from NIH, and
determined that the NIH proposal is identical to the merit-reviewed NSF proposal, other than
required formatting differences. The copied text in the proposals is identical.

        Based on the extensive verbatim plagiarism, we conclude that the Subjects intentionally
plagiarized in proposals submitted to NSF and NIH.

                                                   Conclusions

       Based on the evidence we obtained, we conclude that the Subjects intentionally and
purposefully fabricated their credentials in multiple proposals submitted to NSF. The Subjects
claimed multiple academic degrees they did not earn, and professional employment experience
they did not possess. We also conclude that the Subjects committed intentional plagiarism in
NSF proposals.

III.       Referral to the Department of Justice

        We referred this case to the United States Attorney in the
for possible prosecution. 19 The AUSA agreed with our conclusion
misrepresented their academic credentials and professional work experiences. However, the

14
     - · d e c l i n e d for funding.
15
     The annotated       and annotated source documents are included at Tab 5.
16




                                                 :False statements; 18 U.S.C. § 1343: Wire Fraud; and 18 U.S.C.
§371: Conspiracy to Defraud the United States.



                                                         4
AUSA concluded that since no federal funds were awarded, there was no loss to the government.
The case was declined for prosecution. 20

IV.     Subject's Response to Draft Report oflnvestigation

        We sent a draft copy of our report of investigation to both Subjects (the PI and the coPI).
In his email responses, 21 the PI denied any responsibility in preparation of two proposals
submitted to NSF and one to NIH. The PI stated:

        First off let me say we had nothin~H. We have a third
        person involved when we s t a r t e d - - w a s on
        our board and he was in charge of getting the funding. What he did with the NSF
        and the NIH is not familiar to us at all.

and




and

        M r . - is no longer associated with this organization. 23

Additionally, the PI stated:

        We originally hired
        to file a 501(c)(3)                                           there must be three
        ~hepa~;
       - , a n d - is                                             was              board
       members from June 10,2010 until December 1 5 , 2 0 1 1 . - wanted to do
       all the work for acquiring grants and funds in which to get this organization off
       the ground. It was agreed that this organization was to be a
       Our intentions were and still are to
       -       in the United States. Both
       know anything about the NSF or
       informed us at our quarterly meeting that he was moving to Saint
       did not want to be a part of this organization on December 15, 2011. We have not

20
   The AUSA's declination letter is at Tab 7.
21
   Tab 8.
22
   We note that the IRS Form 1023 provided to us, which the PI states he prepared, lists degrees f o r - as 1)
Associate degree in Business management, 2) Associ~logy, and 3) Associates degree in
Computer Science. As noted, we established that t h e - - - - has not awarded any degrees t o - .
23
    Subject's email of February 13, 2012.



                                                       5
       heard from him since then.
                      and did not

In an attachment to a later
documents that list
include a resume for



       bOlUCalloJn: "'·"'"·"'"••..,., rtPorrPP in Psychology.
       Work experience: Almost one year Drug and alcohol counseling.
       Position in Non profit: Treasurer 26

        We sent a letter t o - at the indicated address informing him of our desire to
speak with him about his participation with the organization. He called us in          . He
asserted that he never worked for nor was ever associated with                             that he
never co~ or submitted any proposals for funding. He
through - s son, with whom he had worked in the past in a screen-printing u ....., ......,.,.
followed up the phone conversation with a letter to a new address he provided to us during the
phone conversation, but the letter was returned to us, citing an incorrect address.




        The PI provided corrected information for the identity of the coPI; 27 we revised the report
accordingly. Based on information provided by the PI, we attempted to contact the coPI at an
alternate address, but we received no response.

       Reviews for the first reviewed NSF proposal submitted by the Subjects were emailed
back to the PI at the email address provided in the proposal. 28 The second NSF proposal
submitted by the Subjects was returned without review, and this notification was also sent to the
PI by email. The PI stated that he was totally uninvolved with the preparation and submission of
these NSF proposals bearing his name as PI and as authorized organizational representative.

       We conclude that the PI's assertion is not credible, and it is untenable that the PI was:
1) unaware of the initial submissions of twelve proposals and their withdrawal or return; 2)
unaware of the declination of the proposal merit-reviewed by NSF; 3) unaware of the reviews
provided for that proposal; 4) unaware of the second NSF proposal submission and return




                                                 6
without review; and 5) unaware of the proposal submission to NIH. This asserted non-
involvement by the PI with requests for funding, including detailed budget requests, contrasts
with the PI's involvement with the preparation of documents to establish the organization as a
501(c)(3) entity.

V.        OIG Recommendation for Debarment

          A.         Authority for Debarment

        In debarment actions, the burden of proof lies with NSF to demonstrate by a
preponderance of the evidence that cause for debarment exists. 29 NSF may debar an individual
for the reasons listed in 2 C.F .R. §180.800 (b),(c), or (d), if it establishes by a preponderance of
evidence that the individual being considered for debarment engaged in a "[v]iolation of the
terms of a public agreement so serious as to affect the integrity of an agency program ... such as
... a willful violation of a statutory or regulatory provision or requirement applicable to a public
agreement or transaction.... " 30 or ifNSF determines there is "any other cause of so serious a
nature as that it affects present responsibility." 31 Moreover, NSF may impute the fraudulent,
criminal, or other improper conduct of any officer, director, shareholder, partner, employee, or
other individual associated with an organization, to that organization when the improper conduct
occurred in connection with the individual's performance of duties for or on behalf of that
organization, or with the organization's knowledge, approval or acquiescence." 32

        In this case, if the Subjects did not prepare the proposals, as claimed by the PI, their
acquiescence in allowing the submission and review of three proposals requesting almost six
million dollars in funding, without their explicit review, approval, or knowledge, is evidence a
lack of present responsibility. As explained above, based upon the record evidence, we
concluded that it was not credible that these proposals were prepared and submitted without the
involvement of the Subjects. We therefore conclude that the Subjects fabricated their
educational credentials and work experience in three proposal submissions to two federal
agencies, and that each proposal was intentionally plagiarized. The fabricated information the
Subjects provided to NSF constituted material information pertinent to NSF's decision-making
process. The Subjects' actions distort the validity of the merit review process, constitute a
violation of the underlying precepts of that public transaction, and provide evidence of a lack of
present responsibility.




29
     2 C.F.R.   §§ 180.850(a) and 180.855.
30
     2 C.F.R.   § 180.800(b)(3).
31
     2 C.F.R.   § 180.800(d).
32
     2 C.F.R.   § 180.630(a).




                                                  7
          B.       Evidence that Cause for Debarment Exists

        The debarment regulation lists 19 factors that the debarring official may consider, if
applicable, 33 when determining whether there is adequate evidence that a cause for debarment
exists. The following factors are pertinent to this case:

        Frequency or Duration of Incidents 34

       Fabricated claims of educational degrees and fabricated claims of employment and
professional history are pervasive in the numerous versions of proposals submitted to NSF with
the Subjects listed as PI and coPI. Further, there was substantial plagiarism in all submitted
proposals.

        Pattern of Wrongdoing 35

        Previous civil and criminal convictions for forgery and fraud committed by the PI
constitute a relevant part of a pattern of behavior, along with submission of the proposal to NIH
with identical fabricated claims and plagiarism.

        Role in Wrongdoing 36

       The Subjects submitted or acquiesced to fabricated claims of educational degrees and
professional employment experience in fourteen proposals submitted to NSF, and one to NIH,
and the rampant plagiarism has not been refuted.

        Position Held by Subjece 7

       The Subjects and the organization are synonymous. Therefore, their actions can be
imputed to the organization, and we conclude that action against both the Subjects and the
organization is warranted.

          C.       Recommendation

        We recommend that NSF debar the Subjects and their organization for five years.
Debarments that exceed three years may be imposed by the debarring official after consideration
of the factors listed above. 38 In this case, the Subjects' actions are egregious. The Subjects
fabricated, or allowed fabrication, of their academic credentials and professional employment
experience in an attempt to make their personal qualifications for performing the proposed
research appear credible. Their proposed research is described in a project description that
substantially plagiarized from the work of others, seriously departing from the most elementary

33
     2 C.F.R. § 180.860.
34
     2 C.F.R. § 180.860(b).
35
     2 C.F.R. § 180.860(c).
36
     2 C.F.R. § 180.860(f).
37
     2 C.F.R. § 180.860(k).
38
     2 CFR § 180.865 (b).



                                                 8
standards of scholarship. Although the Subjects' NSF proposal was declined for funding, the
Subjects had a history of submitting proposals for federal funding, and may submit future
proposals to NSF or other Federal agencies, 39 or may induce others to do so under their
organization's name. Debarment is an appropriate action to protect Federal interests and prevent
the award of Federal funds to the Subjects in the future.




39
     The PI specifically indicated an intention to submit future proposals to other federal agencies (email ofFebruary
U,201~.                                                                        '




                                                            9
                                   NATIONAL SCIENCE FOUNDATION
                                        4201 WILSON BOULEVARD
                                       ARLINGTON, VIRGINIA 22230


                                             DEC     4 '\T2


      OFFICE OF THE
     DEPUTY DIRECTOR




 CERTIFIED MAIL --RETURN RECEIPT REQUESTED




         Re: Notice of Proposed Debarment




 In light of your misconduct, this letter serves as formal notice that the National Science
 Foundation ("NSF") is proposing to debar you from directly or indirectly obtaining the benefits
 ofFederal grants for five years. During this period of debarment, you will be precluded from
 receiving Federal financial and non-financial assistance and benefits under non-procurement
 Federal programs and activities. In addition, you will be prohibited from receiving any Federal
 contracts or approved subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly,
 during this debarment period, you will be barred from having supervisory responsibility, primary
 management, substantive control over, or critical influence on, a grant, contract, or cooperative
 agreement with any agency of the Executive Branch of the Federal Government.

 Reasonfor Debarment

  NSF is proposing debarment against you based upon a referral from NSF's Office oflnspector
  General ("OIG"). In accordance with the OIG's investigative report, you fabricated claims of
  academic degrees and professional employment experience in two NSF proposals, as well as one
. proposal submitted to the National Institutes of Health (''NIH"). In addition, each of these three
  proposals contained extensive copied text from uncited sources, constituting plagiarism.
Regulatory Basis for Debarment

Pursuant to 2 CPR 180.800, debarment may be imposed for:

(b) Violation of the terms of a public agreement or transaction so serious as to affect the integrity
of any agency program, such as-

(3) A willful violation of a statutory or regulatory provision or requirement applicable to a public
agreement or transaction; or

***
(d) Any other cause of so serious or compelling a nature that it affects your present
responsibility.                                ·                   ·


In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. Your misconduct, as set forth in the OIG's
investigative report, supports a cause for debarment under 2 CPR 180.800(b)(3) and (d).


Length of Debarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CPR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. Id
Having considered the seriousness of your actions, as well as the relevant aggravating and
mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period offive
years.


Procedures Governing Proposed Debarment

The provisions of 2 CPR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days after receipt of this notice to submit,
in person, or in writing, or though a representative, information and argument in opposition to
this proposed debarment. 2 CFR 180.815, 180.820. Comments submitted within the 30-day
period will receive full consideration and may lead to a revision of the recommended disposition.
If NSF does not receive a response to this notice within the 30-day period, this debarment will
become final.
Any response you choose to submit should be addressed to Lawrence Rudolph, General Counsel,
National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room
1265, Arlington, Virginia, 22230. For your information, we are attaching a copy of the
Foundation's regulations on non-procurement debarment and FAR Subpart 9.4.



                                                 Sincerely,




                                                 Cora B. Marrett
                                                 Deputy Director


Enclosures:
OIG Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
                                  NATIONAL SCitNCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
    DEPUTY DIRECTOR
                                                                         MAR n~ Z013



VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re: Notice of Debarment


Dear-

On December 4, 2012, the National Science Foundation ("NSF") issued to you a Notice of
Proposed Debatment ("Notice"), in which NSF proposed to debar you from directly or indirectly
obtaining the benefits of Federal grants for a period of five years. As reflected in the Notice,
NSF proposed your debarment for fabricating claims of academic degrees and professional
employment experience in three proposals submitted to the Federal Government, and for
including plagiarized materials in these proposals. In that Notice, NSF provided you with thirty
days to respond to the proposed debarment ..

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until December 3, 2017. Debarment precludes you from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee makes a determination to grant an exception in
accordance with 2 CPR 180.135. Non-procurement transactions include grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, loan guarantees, subsidies,
insurance, payments for specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CPR Subpart 9.4 for the period of this debarment.
2 CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency ofthe Executive Branch of the Federal Government.
                                                                                          - 2 -
Should you have any questions regarding the foregoing, please contact Eric S. Gold, Assistant
General Counsel, at (703) 292-8060.




                                                   Sincerely,



                                                   Cora B. Marrett
                                                   Deputy Director
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230 .

                                        DEC     ~·   20\2



     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re: Notice of Proposed Debarment


Dear-:

In light of your misconduct, this letter serves as formal notice that the National Science
Foundation ("NSF") is proposing to debar you and                                (the "Company")
from directly or indirectly obtaining the benefits of Federal grants for five years. During this
period of debarment, you and the Company will be precluded from receiving Federal financial
and non-financial assistance and benefits under non-procurement Federal programs and
activities. In addition, you and the Company will be prohibited from receiving any Federal
contracts or approved subcontracts under the Federal Acquisition Regulations ("FAR"). Lastly,
during this debarment period, you and the Company will be barred from having supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.


Reason for Debarment

NSF is proposing debarment against you and the Company based upon a referral from NSF's
Office oflnspector General ("OIG"). In accordance with the OIG's investigative report, you
fabricated claims of academic degrees and professional employment experience in two NSF
proposals, as well as one proposal submitted to the National Institutes of Health ("NIH"). In
addition, each of these three proposals contained extensive copied text from uncited sources,
constituting plagiarism.
Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

(b) Violation of the terms of a public agreement or transaction so serious as to affect the integrity
of any agency program, such as-

(3) A willful violation of a statutory or regulatory provision or requirement applicable to a public
agreement or transaction; or

***
(d) Any other cause of so serious or compelling a nature that it affects your present
responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance ofth~ evidence. 2 CFR 180.850. Your misconduct, as set forth in the OIG's
investigative report, supports a cause for debarment under 2 CFR 180.800(b)(3) and (d).
Moreover, your misconduct occurred in connection with your performance of duties for or on
behalf of the Company, or with the Company's knowledge, approval, or acquiescence. Thus,
NSF may impute your conduct to the Company in accordance with the government~ wide
debarment regulations. 2 CFR 180.630.


Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstances warrant, a longer period may be imposed. I d.
Having considered the seriousness of your actions, as well as the relevant aggravating and
mitigating factors set forth in 2 CFR 180.860, we are proposing debarment for a period of five
years.


Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision~making. Under our regulations, you and the Company have 30 days after receipt ofthis
notice to submit, in person, or in writing, or though a representative, information and argument
in opposition to this proposed debarment. 2 CFR 180.815, 180.820. Comments submitted
within the 30~day period will receive full consideration and may lead to a revision of the
recommended disposition. If NSF does not receive a response to this notice within the 30~day
period, this debarment will become final.
Any response you choose to submit should be addressed to Lawrence Rudolph, General Counsel,
National Science Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room
1265, Arlington, Virginia, 22230. For your information, we are attaching a copy of the
Foundation's regulations on non-procurement debarment and FAR Subpart 9.4.




                                                 Sincerely,



                                                Cora B. Marrett
                                                Deputy Director


Enclosures:
OIG Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
                                    ....   ~_,.




                                   NATIONAL SCIENCE FOUNDATION
                                                   4201 WILSON BOULEVARD
                                                  ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
    DEPUTY DIRECTOR
                                                                              MAR Z 7 2013



VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




        Re: Notice of Debarment


Dear-

On December 4, 2012, the National Science Foundation ("NSF") issued to
Proposed Debarment ("Notice"), in which NSF proposed to debar you and
- · (the "Company") from directly or indirectly obtaining the benefits of Federal grants for
a period of five years. As reflected in the Notice, NSF proposed the debarment of you and your
Company for fabricating claims of academic degrees and professional employment experience in
three proposals submitted to the Federal Government, and for including plagiarized materials in
these proposals. In that Notice, NSF provided you with thirty days to respond to the proposed
debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you and the
Company are debarred until December 3, 2017. Debarment precludes you and the Company
from receiving Federal financial and non-financial assistance and benefits under non-
procurement Federal programs and activities unless an agency head or authorized designee
makes a determination to grant an exception in accordance with 2 CFR 180.13 5. Non-
procurement transactions include grants, cooperative agreements, scholarships, fellowships,
contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for specified use,
and donation agreements.

In addition, you and the Company are prohibited from receiving Federal contracts or approved
subcontracts under the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of
this debarment. 2 CFR 180.925. During the debarment period, you may not have supervisory
responsibility, primary management, substantive control over, or critical influence on, a grant,
contract, or cooperative agreement with any agency of the Executive Branch of the Federal
Government.
                                                                                          - 2 -

Should you have any questions regarding the foregoing, please contact Eric S. Gold, Assistant
General Counsel, at (703) 292-8060.




                                                   Sincerely,

                                                   ~ $. ~cv~
                                                   Cora B. Marrett
                                                   Deputy Director
